           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



       SINGLE AUDIT OF THE
         STATE OF INDIANA
    FOR THE FISCAL YEAR ENDED
            JUNE 30, 2004


    December 2005   A-77-06-00001




  MANAGEMENT
ADVISORY REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                    SOCIAL SECURITY
MEMORANDUM

Date:   December 6, 2005                                                    Refer To:

To:     Candace Skurnik
        Director
        Audit Management and Liaison Staff

From:   Inspector General

Subject: Management Advisory Report: Single Audit of the State of Indiana for the Fiscal Year
        Ended June 30, 2004 (A-77-06-00001)


        This report presents the Social Security Administration’s (SSA) portion of the single
        audit of the State of Indiana for the Fiscal Year ended June 30, 2004. Our objective
        was to report internal control weaknesses, noncompliance issues, and unallowable
        costs identified in the single audit to SSA for resolution action.

        The Indiana State Board of Accounts performed the audit. The Department of Health
        and Human Services (HHS) desk review concluded that the audit met Federal
        requirements. In reporting the results of the single audit, we relied entirely on the
        internal control and compliance work performed by the Indiana State Board of Accounts
        and the reviews performed by HHS. We conducted our review in accordance with the
        Quality Standards for Inspections issued by the President’s Council on Integrity and
        Efficiency.

        For single audit purposes, the Office of Management and Budget assigns Federal
        programs a Catalog of Federal Domestic Assistance (CFDA) number. SSA’s Disability
        Insurance (DI) and Supplemental Security Income (SSI) programs are identified by
        CFDA number 96. SSA is responsible for resolving single audit findings reported under
        this CFDA number.

        The Indiana Disability Determination Services (DDS) performs disability determinations
        under SSA’s DI and SSI programs in accordance with Federal regulations. The DDS is
        reimbursed for 100 percent of allowable costs. The Family and Social Services
        Administration (FSSA), Division of Disability, Aging and Rehabilitation is the Indiana
        DDS’ parent agency.
Page 2 – Candace Skurnik


The single audit reported that errors in the computer program used to prepare the
SSA-4514 (Time Report of Personnel Services) resulted in an under reporting of hours
for Indiana DDS employees. The corrective action plan indicated that FSSA
implemented procedures to verify that amounts reported on Form SSA-4514 properly
reconciled to source records and revised SSA-4514 reports were submitted to SSA
(Attachment A, pages 1, 2, and 3).

We recommend SSA verify that FSSA implemented appropriate procedures to ensure
that the amounts reported on the SSA-4514 are accurate.

Please send copies of the final Audit Clearance Document to Shannon Agee and Rona
Lawson. If you have questions, contact Shannon Agee at (816) 936-5590.




                                              S
                                              Patrick P. O’Carroll, Jr.

Attachment
Attachment A
  Page 1 of 3
Attachment A
  Page 2 of 3
Attachment A
  Page 3 of 3
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.

                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.

                  Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
